<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: NON-RESPONSE FOLLOW-UP AND OTHER KEY CONSIDERATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  OVERSIGHT OF THE 2000 CENSUS: NON-RESPONSE FOLLOW-UP AND OTHER KEY 
                             CONSIDERATION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2000

                               __________

                           Serial No. 106-203

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
71-177                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
              Lara Chamberlain, Professional Staff Member
                 Amy Althoff, Professional Staff Member
                        Andrew Kavaliunas, Clerk
                     Michelle Ash, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 11, 2000.....................................     1
Statement of:
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      accompanied by Robert N. Goldenkoff, Assistant Director, 
      and Randolph C. Hite, Associate Director, GAO..............    18
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    13
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated May 3, 2000.................................    46
        Memo dated May 11, 2000..................................    11
        Prepared statement of....................................     6
    Mihm, J. Christopher, Associate Director, Federal Management 
      and Workforce Issues, U.S. General Accounting Office, 
      prepared statement of......................................    22
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida:
        Followup questions and responses.........................    57
        Letter dated May 9, 2000.................................    61
        Redacted memo............................................    55
        Prepared statement of....................................     3

 
  OVERSIGHT OF THE 2000 CENSUS: NON-RESPONSE FOLLOW-UP AND OTHER KEY 
                             CONSIDERATION

                              ----------                              


                         THURSDAY, MAY 11, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:20 a.m., in 
room 2247, Longworth House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Ryan, Maloney, Davis, and 
Ford.
    Staff present: Jane Cobb, staff director; Chip Walker, 
deputy staff director; Lara Chamberlain, Michael Miguel, and 
Amy Althoff, professional staff members; Andrew Kavaliunas, 
clerk; Michelle Ash, minority counsel; David McMillen and Mark 
Stephenson, minority professional staff members; and Earley 
Green, minority assistant clerk.
    Mr. Miller. Good morning. A quorum being present of the 
subcommittee, the committee will come to order and we'll begin 
with opening statements.
    Today we welcome the nonpartisan General Accounting Office. 
The GAO is the investigative arm of Congress. As such, it 
provides an objective assessment of a wide range of issues of 
concern to Congress.
    GAO's mission, as stated on its Web site says the 
following,

    GAO's mission is to help the Congress oversee Federal 
programs and operations to assure accountability to the 
American people.
    GAO's evaluators, auditors, lawyers, economists, public 
policy analysts, information technology specialists, and other 
multidisciplinary professionals seek to enhance the economy, 
efficiency, effectiveness, and credibility of the Federal 
Government, both in fact and in the eyes of the American 
people.
    GAO accomplishes its mission through a variety of 
activities including financial audits, program reviews, 
investigations, legal support, and policy and program analyses. 
GAO is dedicated to good government through its commitment to 
its values of accountability, integrity, and reliability.

    The nonpartisan GAO has been an invaluable resource to this 
subcommittee and our enormously difficult task of overseeing 
the almost $7 billion 2000 census.
    At this point, I would normally talk about the status of a 
range of Census Bureau operations. However, very late 
yesterday, my subcommittee became aware of a very serious 
matter that cuts to the heart of this census and severely calls 
into question the Census Bureau's credibility. The subcommittee 
received information that a mid-level Census Bureau manager had 
instructed, in an e-mail memo to other Census Bureau managers 
under his supervision, to intentionally keep information from 
the General Accounting Office.
    The memo states in part the following, ``I will try to get 
the D-333D report to you all on a daily basis. However, this 
report must and can not be shared with any GAO representative. 
This is a report that must not be shared with anyone else 
except the management staff.''
    Let me repeat the relevant part of that paragraph, ``This 
report must and can not be shared with any GAO 
representative.'' To say I am shocked would be an 
understatement. I am appalled. The document in question is an 
update on the progress of local census offices during the very 
difficult non-response followup phase of the census. The 
specifics in this document, while important, are really not at 
issue here. The issue is a clear attempt to prevent Congress, 
through the GAO, of having access to the information. Is this 
the first time, or just the first time the Census Bureau has 
gotten caught? I take this obstruction seriously. I take it 
personally. This Congress takes it personally.
    Director Prewitt on numerous occasions has said this will 
be the most transparent census ever. This Congress has been 
assured of the level of professionalism and transparency in 
which this census would be conducted. This Congress has been 
told to trust the Census Bureau. In fact, whenever there was a 
suggestion that the Census Bureau would attempt to hide 
something from the Congress, it was summarily dismissed. How 
could Congress impugn the integrity of the Census Bureau, the 
defenders shouted.
    I don't for 1 minute believe that this mid-level manager 
decided on his own that he would instruct his local census 
office managers to withhold information from the GAO. Someone 
in a more senior position had to give this mid-level Manager 
these instructions. Whether this reaches beyond the regional 
census office and back to the Census Bureau headquarters is a 
question that must be answered. No stone be left unturned. 
There must be full accountability.
    While the vast number of Bureau employees are very 
professional, there are those, some in very influential 
positions, who have their own agenda. These people have no 
respect for Congress. They view us elected officials as 
meddlesome and they don't respect legitimate oversight. These 
people and this attitude are dangerous.
    The most politically sensitive part of this census has yet 
to begin in earnest. What documents have been, or will be, 
hidden from the bright lights of scrutiny? Today there is 
reason to be worried; very, very worried. Thank you.
    There is a copy of the redacted version of the e-mail memo.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.001
    
    [GRAPHIC] [TIFF OMITTED] T1177.002
    
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. I just would like to put my prepared 
statement in the record, I don't even know where my prepared 
statement is, and just respond to your accusations.
    You know, first of all, we can't even talk to anyone on the 
West Coast since it's not yet 9 a.m. there. And I suggest that 
we get Director Prewitt here so that we can find out what his 
response is before we start making accusations.
    I would like to point out that this is edited in your 
statement. You add two words. You add ``is'' and ``not.'' And 
you quote from this memo but in fact this chairman's statement 
contains alterations. And I am asking my staff, and I would 
like my staff to hand out redacted copies of this memo and show 
that what the chairman is stating is not the entire facts. And 
I'd like the memo, before it was edited, to be placed in the 
record.
    Mr. Miller. It's already in the record.
    Mrs. Maloney. And it's not clear what this means. It says, 
however, this report must and cannot be shared with any GAO 
representative. This is a report that must be shared with 
anyone else except the manager staff. So he's talking, I 
assume, about the census when you talk about the management 
staff. But I think the important thing is to get the area 
director here who allegedly wrote this. And we know that area 
directors are people who are hired only a year ago. And to have 
a few people reporting to them--and how in the world could this 
be some type of vast conspiracy to hide information which the 
chairman is attempting to put out?
    I want to remind everyone that the last time that the GAO 
was here, when Christopher Mihm was here, he said that he was 
getting more information than he got in 1990. So my suggestion 
is that we suspend this hearing and call the director here and 
have the response of the individuals so that we know what we're 
talking about. You put forward some criticisms that I think 
should be answered. And the appropriate information is not here 
to have an accurate picture. We should have an accurate 
picture. We just got it this morning and we can't even call the 
area director because it's not even 9 a.m. in California. So I 
move to suspend this hearing until the director is called, 
until this afternoon, or however fast he can get over here.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T1177.003

[GRAPHIC] [TIFF OMITTED] T1177.004

    Mr. Miller. This is a regular scheduled meeting that's been 
having full notice since the GAO was mentioned in this. I just 
found out about it early last evening. We have a number of 
issues we want to talk to GAO about other than this one. So I 
don't feel we should be suspending this hearing at this time 
but we should proceed to complete this hearing. And we will 
certainly be having another hearing where we can discuss this 
and certainly we will have a chance to discuss it.
    I called Director Prewitt, or we talked earlier this 
morning when I--to let him know about this--and we've shared 
this document, nonredacted version, with both you and with 
Director Prewitt in the Census Bureau. So we'll proceed.
    Mr. Ryan.
    Mr. Ryan. Mr. Chairman I wasn't planning on an opening 
statement but I think I will now. I wanted to hear the 
testimony from the witnesses, but you know we invited all these 
gentlemen up here to testify, I don't want to waste their time. 
I'd like to move forward with the hearing and hear the 
testimony.
    But let me point to what my colleague from New York was 
pointing at in a misleading comment. I'll read this paragraph. 
It's very clear there's just a simple typo in this paragraph. 
Here is the e-mail message from the mid-level census employee 
to the LCO administrators: I will try to get the DS--or the D-
333D report to you on a daily basis. However, this report must 
and can not be shared with any GAO representative.
    That's the original version. This a report must be shared 
with anyone else except for the management and staff. It's a 
typo. It says this a report that must be shared with anyone 
else except the management staff. All the chairman added into 
this was the grammatical correction with the proper grammatical 
corrections, which is, this is a report that must not be shared 
with anyone else except the management staff.
    It's obviously extrodinarily clear from the preceding 
sentence what the goal was, what the intent of the e-mail was, 
which was, ``However, this report must and can not be shared 
with any GAO representative.'' Why this is so alarming is 
because Congress is in the midst of overseeing the current 
census as it's unfolding right now. We're in the heat of battle 
right now. We're in the midst of sending enumerators to 
streets.
    In my area I'm very concerned about the people who have 
P.O. Boxes, didn't get a form, and we have to rely on 
enumerators going to their door to collect information from 
these people. We have towns throughout rural Wisconsin that 
never got a census form, that are hoping an enumerator comes by 
to get their census. So I've got some real concerns. I want to 
hear from the GAO on these points.
    Mrs. Maloney. Will the gentlemen yield for a question? The 
gentleman points out what he describes--the chairman's editing 
as a typo. When the chairman added ``is,'' this is a report 
that must--the way it reads, that must be shared. And the 
chairman added ``not.'' Must not be shared.
    But my question is this. My question is this. Seriously, 
why is not----
    Mr. Miller. Have a straight face here.
    Mrs. Maloney. I do think this is rather humorous because in 
the sentence before, it says, however, this report must and can 
not be shared with any GAO representatives. In one case the 
chairman adds ``not'' and says it's a typo. I question you why 
is the first sentence not a typo and that ``not'' should have 
been out of that sentence. So I mean, I think it's very 
important that we get the chairman here. I move to suspend this 
hearing until we hear from the chairman.
    Mr. Ryan. Reclaiming my time. Carolyn, I have the time 
right now and I'll reclaim it. There's some other typos in 
here. I think the person who wrote this may have to go back for 
some grammatical lessons. But I will try to get the D-333D 
report to you all on a daily basis. That's not very good 
grammar right there. However, this report must and can not be 
shared with any GAO representative. That's pretty darn clear. 
``This a report that must be shared,'' that's bad grammar.
    I think it's extraordinarily reasonable, extraordinarily 
reasonable, to assume that the person who wrote that sentence 
was intending to say this is a report that must not be shared 
with anyone else except the management staff. It's 
extraordinarily clear. I think anybody who looks at this can 
tell that GAO is being thwarted in their investigation, which 
is the auditing arm of Congress to investigate, to examine, to 
oversee the census as it is transpiring. That's what the role 
in Congress is doing. That's what the whole point of having GAO 
is. That's what oversight is, to oversee the census. We're at a 
critical time. So I think we should just, here with the GAO, 
move on with the hearing. But I agree with my colleague.
    Mrs. Maloney. I have heard from the director.
    Mr. Ryan. We should have the director here as well.
    Mrs. Maloney. I would like to----
    Mr. Ryan. I yield back the balance of my time to the 
chairman.
    Mrs. Maloney. I would like to respond that when you are and 
the chairman are alleging some type of conspiracy to hide some 
information, all of the information contained in the memo is 
available to the GAO. And let me repeat that again: All of the 
information is available to the GAO, since the GAO has direct 
access to the Census Bureau's computers and management system. 
And since we have heard from the director I would like to read 
his response into the record and place it in the record.
    Mr. Miller. We'll place it in the record and make copies 
available. I think we need them.
    Mrs. Maloney. I think the director, since you have alleged 
concealing information, has the right to have his response read 
to the people in this room that are here listening to your 
misleading statements.
    Mr. Miller. Now, Mrs. Maloney, they're not misleading. 
Those are clear facts. But go ahead, I give you permission to 
read it.
    Mrs. Maloney. This is addressed to the Honorable Dan 
Miller, chairman of the Subcommittee on the Census, and it is 
carbon copied to myself. And it states it's from director 
Kenneth Prewitt:

    As per my conversation with you at 9:07 a.m. This morning, 
here are the facts:
    1. There is no policy that exists at the Census Bureau that 
states information should not be given to GAO when requested.
    2. On Tuesday evening at about 6 p.m., senior Census Bureau 
staff voluntarily faxed to senior GAO staff the check-in 
numbers along with workload of housing units completed, number 
of Assignment Areas and status of work in those AAs as of 
Monday night. No further data were requested by GAO.
    3. I bring to your attention that all NonResponse Follow-Up 
workload check-out data, and more, exist in our real-time data 
base system known as Cost and Progress to which GAO has 
complete access.
    4. The Census Bureau does not place expectations on lower 
and middle management of Field Operations staff to fully 
understand our standing policies with respect to oversight and 
access and therefore are tasked to not immediately process the 
request but to report to upper management when requests for 
specific data are made of them.

    So I'd like to place this in the record.
    Mr. Miller. No objection to putting it in the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.005
    
    Mr. Miller. Two months ago we had a hearing that I was very 
concerned about access to the information both by the 
monitoring board, GAO, Inspector General, and our committee and 
staff. It's been a real concern when you receive a memo that 
very specifically and explicitly says do not share it with the 
GAO. I guess that's not important to you. I think it's a 
serious question, a serious problem if they're denying 
something to GAO. The data is not important because it 
shouldn't be that critical, what I see of the form. But the 
fact that someone--this is an area manager who is over a number 
of local census offices--would put this in writing, we need to 
look into it. Again, I found out about it early yesterday 
evening. I was in a markup and I found out about it. So we 
bring it up today since GAO was here.
    Mr. Davis, do you have an opening statement.
    Mr. Davis. Well, I have one. I'll just ask that it be 
inserted in the record. But it seems to me that we've had lots 
of conversation in the last few weeks about missing e-mails and 
things that can't be found and the manufacturing of memos, and 
it would just seem clear to me that anything that could be 
official would be that which is signed by the Director of the 
Census Bureau. It would be that which is communicated in a very 
direct manner to the committee, specifying that it's to the 
chairman and ranking member. Anything other than that, anything 
less than that, I'd call it hearsay. We don't know where it 
came from. We don't know whose it is. We don't know if it was 
authorized or if it was not authorized. We don't know anything 
about it. All we know is that it's something. So I would want 
to just take Dr. Prewitt's memo as the official position of the 
Bureau.
    And also I'd say it's inconceivable to me that any agency 
or any department of this government would attempt to hide 
something or prevent the Government Accounting Office--I mean 
that's--I mean that's like hearsay. Could you imagine that? 
Trying to prevent the GAO from having access to some 
information? I don't think anybody at any real level would 
attempt to do that, Mr. Chairman. So I'll just take Dr. 
Prewitt's memorandum as the official position on this matter.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.006
    
    [GRAPHIC] [TIFF OMITTED] T1177.007
    
    [GRAPHIC] [TIFF OMITTED] T1177.008
    
    [GRAPHIC] [TIFF OMITTED] T1177.009
    
    Mrs. Maloney. If you could yield to me.
    Mr. Davis. I yield to the ranking member.
    Mrs. Maloney. I think that it's important that we have 
Director Prewitt come and speak for himself. And I agree with 
my colleague, Mr. Davis, who expressed his--my sentiments, too, 
so well. And let's bring in the person who wrote the memo to 
see whether your editing is correct or incorrect. I'm sure they 
can edit their own memos and interpret their own memos. The way 
you edited it changes the meaning of it.
    So I feel that it's important that we hear from Dr. 
Prewitt. And I for one would stay over and later on today after 
this hearing, or come back tomorrow or Monday, but I think this 
needs to be addressed and we need to get the director in to 
hear his point of view and the area manager to interpret his 
own memo. I'm sure he can edit his own memo.
    Mr. Miller. This has been a long-scheduled hearing with the 
GAO and we're doing this on a monthly basis. We're going to 
proceed with the hearing.
    Mrs. Maloney. I'm for proceeding, but let's meet tomorrow 
too.
    Mr. Miller. We're going to be looking into it when we get 
all the information and the people can come to testify. We'll 
be having a hearing on clarifying this. But to start trying to, 
you know, say all of this is edited, it is very clear this 
report says this report must and can not be shared with any GAO 
representative. Now, I don't know if you can read it in clear 
English or not.
    Now, my statement added some grammatical corrections in 
brackets. In brackets. And I want to read this again so you can 
hear. Listen clearly, Mrs. Maloney. ``However, this report must 
and can not be shared with any GAO representative.'' To me, 
that's clear English. And I'm reading it directly.
    Now, I think we have a serious problem because this 
indicates something that's an unofficial hidden agenda. I know 
the official statement. And I'm glad that's what the official 
statement is and I hope that's the case. But if there's some 
hidden agenda that suggests some--is a pervasive problem out 
there, because we had a problem a couple months ago and we 
thought we had it cleared up. But this is very concerning to me 
and it should be very concerning to you because, as Mr. Davis 
said, if this is a policy, not sharing with GAO, there is 
something that cannot stand.
    We'll begin with the hearing. Mr. Mihm, if you would stand, 
and if Mr. Goldenkoff and Mr. Hite would please stand, raise 
your right hands.
    [Witnesses sworn.]
    Mr. Miller. Thank you. Please be seated. Let the record 
show that Mr. Mihm, Mr. Hite, and Mr. Goldenkoff answered in 
the affirmative. Let me officially welcome you. Mr. Mihm, 
you've testified a number of times before our committee and 
obviously have been working very hard in this and we appreciate 
that. Let me just, for everybody's background, Mr. Mihm is 
Associate Director for Federal Management and Work Force Issues 
at the U.S. General Accounting Office. Since 1993 he has 
managed GAO's efforts on the Government Performance and Results 
Act, the--and related results oriented management initiatives.
    Chris also is responsible for GAO work and public-private 
mix issues and the conduct of the 2000 census. He's appeared as 
a witness before Congress, congressional committees, on 
numerous occasions to discuss Federal management reform issues, 
and has been actively involved in working with committees 
across Congress to show them how GPRA can be used to improve 
congressional decisionmaking.
    Prior to assuming his current position, Chris managed GAO's 
reviews of the 1990 census that has identified the actions that 
the Census Bureau needed to take to have a more accurate and 
less costly census in 2000, and reviews the effectiveness of 
the Resolution Trust Corp., the Federal agency responsible for 
resolving the Nation's savings. We are fortunate to have 
somebody that was involved in the 1990 census, since this was 
your background and knowledge and we appreciate it. I believe 
you have an opening statement.

 STATEMENT OF J. CHRISTOPHER MIHM, ASSOCIATE DIRECTOR, FEDERAL 
   MANAGEMENT AND WORKFORCE ISSUES, U.S. GENERAL ACCOUNTING 
    OFFICE, ACCOMPANIED BY ROBERT N. GOLDENKOFF, ASSISTANT 
    DIRECTOR, AND RANDOLPH C. HITE, ASSOCIATE DIRECTOR, GAO

    Mr. Mihm. Yes, sir, thank you, Mr. Chairman. And Mr. 
Chairman, Mrs. Maloney, Mr. Ryan, Mr. Davis, we are once again 
very pleased to be here before you today. I'm fortunate to be 
joined as usual by my colleagues, Randy Hite and Robert 
Goldenkoff. Overall, the initial Bureau data on the census is 
encouraging at this point for nonresponse followup. Major 
operations are reportedly proceeding on schedule and generally 
performing as planned. Particularly noteworthy, as you covered 
with Director Prewitt in the hearing last week, is the 65 
percent initial response rate which, in matching the response 
rate from the 1990 census, surpassed expectations.
    While the overall response rate was very encouraging, the 
Bureau was unable to close the gap that has existed between the 
questionnaire response rates between the short and the long 
forms. As shown in table 2, and this is on page 5 of my written 
statement, during the 1990 and 2000 census cycles, 
questionnaire response rates were higher for the short form 
than for the long form, and this gap has widened over time. The 
2000 census 12.5 percentage point differential response rate 
was twice that of the 1990 census.
    Also shown on page 5 of my statement is that the Bureau 
anticipated a 6.2 percentage point differential between the 
short form and long forms for 2000. However, the actual 
difference was much larger because the response rate to the 
short form was higher than anticipated, while the response rate 
to the long form was only somewhat lower than anticipated. The 
higher-than-expected response rate for the short form suggests 
that the Bureau's efforts during the 1990's to boost response 
rates by streamlining and simplifying the questionnaires, and 
in particular the short form, were largely successful.
    Local response rates are important because they determine 
staffing requirements as well as the scope and the cost of the 
Bureau's field followup operations. As of April 18, the 
response rates at the local census offices ranged from 39 to 80 
percent, as seen on the board that's on our right over there. 
That's also on page 6 of my written statement.
    About 69 percent of the local census offices met or 
exceeded the Bureau's expected response rates for their type of 
office, meaning of course that 31 percent of the local offices 
did not achieve their expected response rate. This 31 percent 
represents 157 local census offices, generally covering 
suburban areas, small- and medium-size cities, towns and/or 
rural areas.
    Mr. Davis, I regret to note that the lowest mail response 
rate, unfortunately, was in Chicago where we traditionally have 
had a very difficult time taking the census in recent years.
    The Bureau's nonresponse followup workload is about 42 
million housing units, which is 4 million fewer housing units 
than anticipated due to the high mail response rate. The Bureau 
has scheduled about 10 weeks to conduct this followup.
    As shown also on the next board on my right, however, you 
can see that the Bureau needed, in both the 1980 and 1990 
censuses, more time to followup with fewer units. So you can 
see in 1980 and 1990 there was a much lower workload on 
followup than we have in 1990 and yet much more time was 
devoted to followup.
    According to a Bureau official, as of May 8 the Bureau had 
completed about 17.4 percent of its nonresponse followup 
workload, a very promising start. However, it's too early to 
tell if this pace will continue. And in doing so--and I think 
this is very important--the Bureau needs to ensure that it 
collects as complete of data as possible and limits the 
inappropriate use of proxy data. This is important because this 
is a problem that the Bureau has had in the past, both in 1990 
and of course more recently during the 1998 dress rehearsal. 
That is, much higher rates of proxy data than was anticipated 
or desired by the Bureau.
    One factor that is clearly helping in doing followup is 
that the Bureau appears to be very well staffed. The Bureau has 
hired over 416,000 enumerators as of May 4 and the Bureau hired 
many more enumerators than open positions in part in 
anticipation of high turnover rates, which during the 1990 
census were about in some cases 100 percent.
    Within the next few days, data should become available that 
will begin to show if turnover is a problem for the 2000 census 
as well.
    In addition to hiring a sufficient number of enumerators, 
officials at most of the local census offices we contacted 
believed that they have enough bilingual enumerators to 
followup with specific population groups, a key concern in 
enumerating traditionally hard-to-count populations.
    The Bureau's success in hiring is due in part to its 
keeping tabs on the progress of local census offices and taking 
quick action where it experienced recruiting problems. As we 
noted in our December report to the subcommittee, such 
monitoring of the recruiting process and responding rapidly to 
any difficulties was a key to addressing the Bureau's staffing 
requirements in this very tight labor market. For example, the 
Bureau responded to recruiting challenges at local census 
offices by increasing wage rates, including, as Director 
Prewitt mentioned last week, at the Tampa office.
    Since January, the Bureau has increased wage rates at 31 
offices and, of these, 11 offices have had their wages 
increased since we last appeared before you in April. As we 
noted in our earlier work, higher wage rates help make the 
Bureau a more competitive employer when it encounters 
recruitment difficulties in such areas as seasonal resort 
areas.
    While hiring, too, appears to be going well, the early 
stages of nonresponse followup were not without some 
operational challenges. These challenges included a programming 
error that caused the omission of surname information from 
nonresponse followup address registers as well as several 
training and supply glitches.
    Let me touch on each of these briefly. First, in regards to 
the surname problem, as you know from Director Prewitt last 
week, the Bureau discovered that surnames had been 
inadvertently omitted from the nonresponse followup registers. 
According to the Bureau, this surname information is important 
to help enumerators collect data from housing units and 
situations where questionnaires may have been misdelivered in 
multiunit structures and in rural areas with clustered mail 
boxes.
    To remedy the omission, the Bureau decided to print 
supplementary address listings that contain the surnames which 
were then added to the address registers that had already been 
produced. Enumerators were then to receive training on how to 
most effectively use the surname address list. However, we 
found that in 8 of the 12 local offices where we observed 
enumerator training, that enumerators' training material did 
not include that supplementary surname address listing, and for 
most of the offices the trainers were not aware that they were 
to receive these listings and provide training on them.
    Later, of the 27 offices we contacted following our 
observation of training, officials at these offices said 
generally said that the Bureau notified them of the surname 
problem and they had taken action to inform their enumerators.
    Second, in regards to the training, trainers at the 12 
offices where we observed training were generally prepared and 
used relevant examples of situations that they may encounter 
and how to handle those situations. For example, in the Los 
Angeles office, the trainers discussed how to handle language 
difficulties, uncooperative residents, and potentially 
hazardous situations such as vicious dogs. Nevertheless, at 
several local census offices, parts of the training were 
incomplete and key materials were lacking. My prepared 
statement mentions the problem at Las Cruces, NM, where a video 
on how to take enumeration was not available.
    Perhaps more important is that at 5 of the 12 local census 
offices we visited, enumerators did not get a chance to perform 
a practice enumeration with actual address registers because 
the registers were not ready. As a result, the enumerators 
missed an important opportunity to have on-the-job training and 
as a group discuss their field work experiences prior to 
working on their own.
    One factor that will add to the nonresponse workload is the 
need to followup on households that are on the Bureau list but 
does not receive a census questionnaire from the Postal 
Service, an issue that had been a particular concern of Mr. 
Ryan. The Bureau mailed out about 99 million questionnaires to 
housing units in mail-out/mail-back delivery areas. Of these 99 
million, the Postal Service was unable to deliver about 11 
million questionnaires. These are known, as you know, as 
undeliverable as addressed, more commonly as UAA 
questionnaires.
    And there were, as my written statement details, a variety 
of reasons as to why these UAAs may exist. Preliminary numbers 
indicate that of the 11 million UAAs, the Bureau has 
successfully redelivered about 1.6 million of these during the 
mail-back phase. The remainder are to be included in 
nonresponse followup unless the Bureau has other information 
that shows that those addresses were not accurate.
    Finally, let me briefly mention the status of the Bureau's 
data capturing processing. We are pleased to report that as of 
April 30, the census was processing questionnaires at a rate 
that will meet the Bureau's May 26 deadline for completing the 
mail-back questionnaire processing. In addition, the system 
development contractor has prepared a master plan and adopted 
an appropriate risk-based approach to modifying the hardware 
and the software configurations. And furthermore, the 
contractor is progressing according to plans.
    Important developments remain, however. Many more detailed 
supporting plans for those events have not been completed, but 
as I noted the Bureau and the contractor are taking appropriate 
steps. The key now is for the Bureau and its contractor to 
complete the plans and to continue to effectively implement 
them.
    In summary, at this early stage of nonresponse followup, 
the 2000 census appears to be generally on track. However, the 
Bureau recognizes that significant challenges lie ahead and as 
the Bureau continues its field followup efforts, it will be 
important for it to maintain staffing levels, maximize 
enumerator productivity, monitor the collection and limit the 
inappropriate use of proxy data, and quickly respond to 
operational problems.
    On behalf of the subcommittee, we will continue to track 
the progress, both here in Washington and throughout the 
country, that the Bureau and its local census offices are 
making in completing nonresponse followup.
    Mr. Chairman, Mrs. Maloney, Mr. Davis, Mr. Ford, this 
concludes my statement. My colleagues and I would be pleased to 
answer any questions you may have.
    Mr. Miller. Thank you Mr. Mihm.
    [The prepared statement of Mr. Mihm follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.010
    
    [GRAPHIC] [TIFF OMITTED] T1177.011
    
    [GRAPHIC] [TIFF OMITTED] T1177.012
    
    [GRAPHIC] [TIFF OMITTED] T1177.013
    
    [GRAPHIC] [TIFF OMITTED] T1177.014
    
    [GRAPHIC] [TIFF OMITTED] T1177.015
    
    [GRAPHIC] [TIFF OMITTED] T1177.016
    
    [GRAPHIC] [TIFF OMITTED] T1177.017
    
    [GRAPHIC] [TIFF OMITTED] T1177.018
    
    [GRAPHIC] [TIFF OMITTED] T1177.019
    
    [GRAPHIC] [TIFF OMITTED] T1177.020
    
    [GRAPHIC] [TIFF OMITTED] T1177.021
    
    [GRAPHIC] [TIFF OMITTED] T1177.022
    
    [GRAPHIC] [TIFF OMITTED] T1177.023
    
    [GRAPHIC] [TIFF OMITTED] T1177.024
    
    [GRAPHIC] [TIFF OMITTED] T1177.025
    
    [GRAPHIC] [TIFF OMITTED] T1177.026
    
    [GRAPHIC] [TIFF OMITTED] T1177.027
    
    [GRAPHIC] [TIFF OMITTED] T1177.028
    
    [GRAPHIC] [TIFF OMITTED] T1177.029
    
    Mr. Miller. Yesterday, late yesterday, we e-mailed you a 
copy of this document. It originated from an area manager and 
was directed at a number of local census office managers. Could 
you explain what an office manager is and what is the 
significance of a memo of this nature coming from someone with 
this title?
    Mr. Mihm. The area managers are the critical link between 
the local census offices, the 511 of those, and the regional 
offices that are the permanent structures that the Bureau has 
established. These are often, in fact, generally temporary 
employees but have been relatively, in the context of the 
census, long-term temporary employees. They oversee between 
anywhere from half a dozen to as many as a dozen different 
local census offices.
    And I can tell you from my personal experience in 1990 and 
2000 that these are positions of responsibility and authority. 
I have seen myself where local census managers appropriately 
defer to the judgment and instructions and guidance that they 
get from their local--from their area manager. So they are a 
key link in the responsibility chain that the Bureau has 
established to manage the census.
    Mr. Miller. Can you please give me your reaction and 
discuss the implications for GAO's efforts to effectively carry 
out your mandate to help oversee this census?
    Mr. Mihm. As you and Mrs. Maloney mentioned during your 
exchange on the opening comments, the actual form that is 
referred to here, the D-333D, contains information that we 
routinely get access to. For us the more important issue is the 
type of message that such a stark statement about ``you must 
not'' and ``must and can not be shared with any GAO 
representative'' sends. That is not typically something that we 
see and certainly do not like to see, and certainly creates an 
environment in which--it sends the message that there are areas 
that are off limits to discussion with the General Accounting 
Office on behalf of the Congress. That is not in our view a 
very healthy development and is not something that should be 
occurring.
    Mr. Miller. Have you shared this document with anyone else 
at GAO and are you at liberty to discuss their reaction or how 
GAO plans to address this serious issue?
    Mr. Mihm. We had--late yesterday after I received this, 
we--I discussed it with some of the senior management in GAO, 
one of the Assistant Comptrollers General. At the General 
Accounting Office this morning, we talked in more detail with 
the one of the associate general counsel about this, and they 
shared the concern that I had just laid out, that it is a 
disturbing statement both in the way it's written and its 
starkness.
    One of the things that's disturbing about it, Mr. Chairman, 
is that there's no context around it. It's not even as though 
it may you cannot and must not share this with GAO without 
approval or without clearance. Such language would be 
acceptable and within the normal bounds of the way we relate 
with the Bureau. The message that it sends that is disturbing 
for us is again, that there are areas in which it is 
inappropriate to be engaging in with the GAO, that we're some 
sort of oppositional force that needs to be cornered off.
    And notwithstanding the good relationships that we have 
with Bureau headquarters and the openness that we have with 
them, there is a vast network of temporary employees across the 
Nation. Having this message out there is, as I mentioned, is 
not a very healthy development, and that was a view that was 
shared at the senior levels.
    One of the things that I know in communications with your 
office late yesterday and even earlier today that they have 
asked us to be prepared for is to write to Director Prewitt, 
and ask him for any copies of any other memos or instructions 
or guidance that may be floating around that would comment in 
any way, either in a positive or negative way, about GAO and 
its access to individuals and documents.
    Mr. Miller. Well, I would like GAO to thoroughly 
investigate this matter.
    In your tenure of employment at GAO--how long have you been 
with GAO?
    Mr. Mihm. 17 years.
    Mr. Miller. 17 years. Are you--are you aware of any 
instances of where a Federal agency has made it their policy to 
withhold information from GAO?
    Mr. Mihm. In many cases, we have to work through access 
issues with agencies. And in my experience in the agencies that 
I've dealt with, I have not seen a statement as stark as this.
    Mr. Miller. What levels of access to Federal data is GAO 
entitled to under the law?
    Mr. Mihm. Our enabling legislation is fairly open-ended in 
that we, on behalf of the Congress, we can basically follow the 
Federal dollar wherever it goes. And so there is very little 
that we do not have access to both in terms of individuals and 
in terms of actual documents.
    Mr. Miller. Two months ago I raised at the hearing, at a 
hearing with Director Prewitt, concerns for access to 
information. I raised the question, what is he trying to hide? 
Because the monitoring board was having problems. We've seen a 
memo that was applying to the Inspector General, the--our staff 
and you. Now there were some meetings afterwards at the staff 
level and things, I thought, were moving in the right 
direction. How is your access and how has it been in the past 
couple months?
    Mr. Mihm. Well, as--let me split that into two ways. First, 
in terms of access to routine operational data of the census, 
because of--as I've mentioned before, because of your efforts 
and the efforts of this subcommittee, we were able to reach an 
agreement with the Bureau that gave us access to the computer 
systems that Mrs. Maloney mentioned in her statement. And so we 
do have access to a wealth of operational information that's 
available in the census, including much of the information that 
is in the D-333D--I think they need to get a more elegant name 
for that form.
    In terms of the field operation, it's always a stickier 
issue because we are taking people's time there and we are 
very, very sensitive to doing what we need to do in order to 
provide or assist the Congress in its effective oversight 
without being a burden on the census. But we are generally able 
to work through any of those issues that we've had with the 
Bureau. So there is no outstanding document or request or 
individual that we have asked for access and have not gotten 
access to.
    However, I should add, there are 10, 15 or 20 of us, 
depending on how it's counted, that are monitoring the census 
on behalf of the Congress, the GAO staff that are monitoring 
the census. We are dependent upon people in headquarters and in 
the field in being forthcoming with us and not just answering 
precisely the question that's being asked but understanding 
what the idea or the thought behind the question. We generally 
have that relationship with the headquarters--they're very 
willing to work through issues with us.
    That's a bit of what's disturbing about this memo, is the 
notion that there is something that would be out there, 
information that would be out there that would be known but not 
shared unless we by some chance ask for the very specific 
question to give me the D-333D. So that's the essence of why 
it's disturbing.
    Mr. Miller. Yeah. Obviously it's of concern if there's--I 
mean, what the policy out of headquarters is that Dr. Prewitt 
talks about is one thing. The concern is, is there some other 
hidden agenda--and that's obviously of concern to you. And 
someone in an area of management that is a high enough level, 
that is pretty serious. You deal with area managers. I'm not 
sure this is not one from the local area, but they know who GAO 
is.
    Mr. Mihm. I'm not sure how much they know how GAO is, but 
yes, sir, we do deal with them. When I, for example, when I was 
out observing the Bureau's enumeration of the homeless, I was 
accompanied by an area manager who was responsible for a number 
of LCOs. The LCO manager asked her questions about the 
operation and deferred to her judgment. Certainly the 
enumerators were asking questions of her while we were out and 
deferred to her judgment. As I mentioned, these are positions 
of some authority and responsibility. These are not--area 
managers--are not inconsequential in the Bureau management 
scheme.
    Mr. Miller. Well, this memo was just e-mailed yesterday so 
we only found out about it hours ago. So I think that you're 
going to investigate it, we're going to look into it, of 
course, and we want to get Director Prewitt's comments on that. 
So with that, you know, this is a very troubling development 
and I'm very concerned and we need to get to the bottom of this 
issue. So I now want to switch over to some questions about 
your report. But let me at this time switch over to Mrs. 
Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    It's good to see you again.
    Mr. Mihm. Thank you, ma'am.
    Mrs. Maloney. When did you, Mr. Mihm, get a copy of this 
memo?
    Mr. Mihm. Late yesterday.
    Mrs. Maloney. Late yesterday you got it.
    Mr. Mihm. Yes, ma'am.
    Mrs. Maloney. Did you ask census about it or did you 
contact them late yesterday? When you say yesterday, about what 
time?
    Mr. Mihm. Probably around 4 p.m. It was faxed to me so I 
can confirm that, but as I recall it was about 4 p.m.
    Mrs. Maloney. Did you call the Census Bureau and ask them 
about it yesterday?
    Mr. Mihm. Not at headquarters; no, ma'am. What we did, 
because we were still working on other things, including 
getting our statement up here to the committee, one of the 
things we did do is at 6 p.m. yesterday I called my colleagues 
that were out in the field--and at that time the only census 
regions that were still open were out in Seattle and Los 
Angeles--and asked them to request copies of the D-333D.
    Mrs. Maloney. OK. And did you inform the minority staff?
    Mr. Mihm. We talked to----
    Mrs. Maloney. Democratic staff.
    Mr. Mihm. We talked to the majority staff. And let me go 
back also to the earlier question, when I came to the hearing, 
I made sure that that census officials that were here had 
received a heads-up on this; and in terms of the minority 
staff, we had talked to majority staff this morning to make 
sure that the minority staff would be notified of this, and 
then also talked with some of your staff when they came over 
early this morning.
    Mrs. Maloney. I would just like to point out to the public 
that I was not informed about this incident until 10:15 this 
morning. So I didn't hear about this incident until then.
    I would like to ask a few questions for the record about 
the information in the D-333D form which was attached to the 
memo the majority has circulated. It contains information about 
the progress of nonresponse followup at some local census 
offices; correct?
    Mr. Mihm. Yes, ma'am.
    Mrs. Maloney. And is this information--is this information 
that you would normally have access to?
    Mr. Mihm. It's through cost and progress; this is 
information that we have access to. It's workload, cases 
completed, cases uncompleted, percent done. It's fairly 
general; the generic operational status issue. So, yes, we do 
have access to this information.
    Mrs. Maloney. So you do have access. Access is not denied 
to you on any information in the D-333D. So how do you gain 
access to this information?
    Mr. Mihm. This is through the automated cost and progress 
reports that we obtained access to now a couple of months ago, 
as a result of the intervention of this subcommittee.
    Mrs. Maloney. And you get this information how quickly?
    Mr. Mihm. There's always a bit of a lag time. This 
information; the D-333D is generated daily out of the regions. 
There is a lag between when it comes in, and when it gets into 
cost and progress. The lag is generally 3, 4 days in some 
cases.
    Mrs. Maloney. So you have access. The longest lag time 
would be 3 days. Could you get it possibly within 1 day?
    Mr. Mihm. It's certainly possible.
    Mrs. Maloney. So it's possible that you have access to all 
of this information between 1 to 3 days and you have direct 
access.
    Mr. Mihm. Yes, ma'am. Yes, ma'am.
    Mrs. Maloney. OK. I think the facts speak for themselves on 
that one.
    I would like to place in the record a letter from 
controller David Walker.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.030
    
    [GRAPHIC] [TIFF OMITTED] T1177.031
    
    Mrs. Maloney. And in it he warns of the disastrous results 
for GAO of the 8 percent budget cut contained in the 
legislative branch appropriations bill which recently passed 
the subcommittee. And I will be sending a letter in opposition 
to this cut. And he warns that this is Draconian and that it 
would cripple GAO and seriously impair GAO's ability to oversee 
the executive branch, and that this is a serious cut. Would you 
agree?
    Mr. Mihm. Yes, ma'am, and not just because he's the 
Comptroller General. I know the status of GAO's budget is 
subject to very sensitive negotiations between the top of our 
agencies and Members and leadership up here on the Hill. But it 
is an issue of some concern for us. We work very hard to 
support the Congress in its oversight and decisionmaking 
matters. And I know the Comptroller General and all of us feel 
very strongly that the Draconian cuts that at least some are 
contemplating would cause real damage to our ability to support 
the Congress.
    Mrs. Maloney. I would conclude by stating that the proposed 
cut by the majority will do far more serious harm to GAO's 
ability to oversee the census and every other executive branch 
than access to the D-333D which allegedly some area manager 
said that you should not have access to something that you 
already have access to. The D-333D you have access to within a 
day, 3 days at the least. So the most serious effort to impair 
GAO's ability to look at the census and get the right answers 
is the majority's effort, which I hope to be part of a 
coalition in a bipartisan way to stop, to cut and hamper your 
budget.
    Mr. Chairman, I must note that this meeting was delayed by 
1 hour due to votes on the floor. I have a bipartisan Women's 
Caucus meeting at this point with some of the leadership in 
your party, some of the leadership in my party, and I regret 
that I have to go to this meeting, and I will be back as soon 
as I can. I did not know that we would be delayed for an hour 
and I hope you understand.
    Mr. Miller. I understand. By the way, I do agree that, you 
know, we should not cut GAO to that extent. It's a process that 
we go through, this appropriations process. I think by the time 
the bill goes to the President, hopefully everybody will be 
happy because we--as you recognize, it's a very critical issue.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Mr. Mihm, as 
you've been involved in doing your work in relationship to 
looking at the census, are you aware of any instances where you 
have attempted to receive data, information from the Census 
Bureau, and have not been able to get that?
    Mr. Mihm. No, Mr. Davis, our concerns have always been with 
the speed in which we're able to get the information. We have 
not had in my experience, now going back over a decade, a 
situation in which we have asked for something that we need and 
the Bureau has said no. Our concern is in getting it in a 
timely format that we can support congressional oversight.
    Mr. Davis. I know that we've had a great deal of discussion 
about the infamous memorandum. But is there any way to 
determine who the individual is or was or----
    Mr. Mihm. I believe so. In the unredacted version there's 
an e-mail address. In discussions that I had with Bureau 
officials before this hearing they indicated that they were 
aware of the source.
    Mr. Davis. So it's going to be fairly easy to find out what 
the person had in mind or----
    Mr. Mihm. I expect sir, yes.
    And following up on the chairman's earlier instructions, we 
will be talking to him or her and asking them what was their 
intent, what was the source of their anxiety about sharing 
something with GAO, what was the source of their instruction, 
if they felt they had some, to do that? And are there other 
documents or pieces of information out there that that 
individual has instructed census officers not to provide to 
GAO?
    Mr. Davis. You mentioned the discrepancy between return of 
the long form versus the short form.
    Mr. Mihm. Yes, sir.
    Mr. Davis. Has there been any attempt to just sort of 
cursorily determine why the difference?
    Mr. Mihm. Well, the general difference that we've seen, and 
as I alluded to earlier, is that the Bureau worked very hard 
throughout the decade, appreciating fully that they would have 
a harder time obtaining public cooperation this time, to 
streamline the census form and to simplify it. It's a much more 
user-friendly document as a result this time around.
    They also had the ambitious national ad campaign that we've 
discussed before, worked in partnerships with a number of local 
governments and other organizations. And so the Bureau was 
anticipating a much harder time obtaining public cooperation 
this time around. Then, in direct response to your question, 
the Bureau did much better on the short form response rate than 
they had anticipated and were marginally off on the long form 
response rate from what they anticipated, actually just a 
couple of percentage points. And so that shows a widening gap 
when in reality a lot of that gap is a function of how much 
better they did on the short form as opposed to a meltdown on 
the long form.
    Mr. Davis. Do you anticipate any further delving into 
trying to find out if there might be other factors contributing 
to the discrepancy?
    Mr. Mihm. Yes, sir. As we move forward both in the 
intermediate term and in the long term, as we begin to think 
about 2010, it is certainly in our minds what Director Prewitt 
mentioned at either the last hearing or the hearing before 
last, that he does not anticipate having a long form in its 
current form in the 2010 census.
    We'll be looking at how else can the Nation get that 
detailed level of demographic data. The Bureau's preferred 
option is American community survey. We'll also more generally 
be assessing how the partnership campaign worked, how the ad 
campaign worked, and others are doing similar assessments, to 
really see if we've turned the corner on public cooperation 
with the census.
    This census reversed a 3-decade decline in public 
cooperation with the census, and that's one of the more 
noteworthy stories that has come out of this census.
    Mr. Davis. I would hope that we'd be able to look at and 
try and determine whether or not some of the public directions 
that people were receiving from high-profile officials 
suggesting that they might not want to complete the long form, 
whether or not that had any impact on the level of response 
that we got.
    You mentioned Chicago being down.
    Mr. Mihm. Yes, sir.
    Mr. Davis. How far down?
    Mr. Mihm. As I mentioned, I regret to report that they are 
at the--the response rate for the Chicago west office was the 
lowest in the country, between--which was between 35 and 39 
percent.
    Let me hasten to add though, Mr. Davis, that even though 
that was lower than anticipated, both given the type of office 
and historically--and certainly, I know, much, much lower than 
the Bureau hoped for--that is, like other census offices up and 
running on nonresponse followup, is reporting progress in 
addressing their workload, and is making progress toward 
completing the census.
    Mr. Davis. When we get down to further analysis, do you 
know if we're going to be taking into consideration 
differential community profiles so that information could be 
used in the early planning and that might prevent us from being 
in this position? I mean, I take the position that I expected 
it to be down in----
    Mr. Mihm. Yes, sir.
    Mr. Davis [continuing]. Those areas, and especially given 
the fact that some of them are some of the most poverty-
stricken areas in the country. And I think that there is a 
direct relationship between poverty and how people respond to 
some public activity such as filling out forms and that kind of 
thing.
    Mr. Mihm. Yes, sir. There is a traditional categorization, 
called hard-to-enumerate areas, which include certainly the 
areas that you're describing where there's severe and long-term 
poverty, areas where there may not be a lot of English-speaking 
residents, areas where traditional family structures may not 
exist, a lot of single-parent families. In addition, a lot of 
these factors overlap, of course, in many parts of the country.
    The Bureau has a data base on that and had instructed its 
local census offices to develop hard-to-enumerate plans. We're 
now gathering samples of those plans, going to be reviewing 
those and then following up with the Bureau, including in 
Chicago, to make sure that the special enumeration procedures 
that had been designed and intended for these hard-to-enumerate 
areas are executed and executed effectively.
    Mr. Davis. Thank you very much Mr. Chairman. I would have 
just hoped we could have made use of some of the information 
that was given earlier--that is, the Bureau in terms of the 
knowledge that some people who have worked with these 
communities have generated over the years--when we suggested 
that greater use be made of local-based community organizations 
to be involved in the process.
    Mr. Miller. At another time I would like to find out what 
kind of community support you had in Chicago, because I always 
thought Chicago had a very proactive--not only the government 
spent a lot of money, the city government, but I was hoping 
other organizations.
    Mr. Mihm. Mr. Chairman, if I could add 10 seconds on that. 
The Chicago Sun Times was one of the newspapers that--exactly 
on your point, sir--that had been most aggressive in both 
promoting the census and in giving census coverage.
    So one of the things that we will be doing is going into a 
number of communities where these partnerships seem to have 
worked, to try and develop a set of best practices as we move 
forward to the next census.
    Mr. Miller. For Chicago, you mentioned their rate being 
low. How did it compare to 1990?
    Mr. Mihm. The 1990 rate I don't know.
    Mr. Goldenkoff. I don't have that offhand.
    Mr. Mihm. We don't have that offhand.
    Mr. Miller. Before I call Mr. Ford, I just want to 
recognize someone who's with us here today and that's the 
cochairman of the Census Monitoring Board, Ken Blackwell. Nice 
to have you here, Mr. Blackwell. Appreciate it.
    Mr. Ford.
    Mr. Ford. Thank you, Mr. Chairman. Thank our witnesses our 
panelists for being here this morning.
    I too, Mr. Chairman, am concerned. I don't know if I'm 
quite appalled by the e-mail that we've learned about this 
morning. I just want to walk back through one more time with 
the panelists regarding this, because I want to ensure that you 
are receiving all of the information that you request. And I 
would even ask the chairman, if he feels free, if he wants to 
comment at all, to please feel free.
    Do you believe that it may be common with GAO--and I want 
to thank you all for all the work that you're doing and the 
response rate to the congressional offices and committees 
throughout this Congress and I'm one that believes your budget 
ought to be raised. I also hope my friends on the other side of 
the aisle don't cut the Capitol Police staff as well, and 
hopefully we can persuade them or dissuade them of that motion.
    But it is your experience and perhaps some of your 
colleagues' experience as you believed when they make requests 
of these agencies, for perhaps senior level people to actually 
have reviewed the materials before they send them to you? Would 
that be unusual, for instance, if you in your office, if you 
get a request for something and you ask a subordinate to 
followup and track down information?
    I know, at least in my office, when letters go out I want 
to take a look at them before they go out, or any 
correspondence from the office. I would probably say to my 
staff folks, as I do, You're not allowed to respond for me or 
the office until I get a chance to take a look at it. Because 
it's my name on the door. I would imagine that probably would 
not be uncommon at GAO, nor would it be--nor would you expect 
it to be unusual at a local census office.
    Mr. Mihm. It's----
    Mr. Ford. I'm asking you to speculate, I understand. If we 
were in a court of law you wouldn't have to respond.
    Mr. Mihm. It's not uncommon. You're quite right. And 
especially in regards to the census, where you have a vast 
network of temporary employees, for headquarters to want to 
take a look at what's given to us before it's delivered over. 
And so that's quite common. Randy Hite, my colleague also deals 
with dozens and dozens of agencies. So, Randy, I don't know if 
you have a perspective as well.
    Mr. Hite. I could add one point and that would be it's 
tremendously variable across agencies. The notion of having 
requests for information reviewed at higher levels in some 
agencies like the FBI, for example, that is very, very common. 
And our experience in dealing with them is very similar to our 
experience in dealing with the Census Bureau. But I could name 
probably a dozen agencies where the decisions about whether to 
release information to us are made at a lower level. So it's 
going to be a reflection of the policy that the institution has 
established, the amount of authority that they want to empower 
individuals at lower levels to execute in dealing with GAO. So 
it's going to vary from organization to organization.
    Mr. Ford. I ask this, Mr. Mihm, fully understanding you may 
not be able to respond, but do you think it was--that the memo 
or the e-mail that we received is, or the contents of it 
suggest--or telling those of you at GAO and those of us in this 
Congress, because the language used by my chairman is somewhat 
strong--do you believe it's an attempt on their part to hide or 
conceal information from the GAO?
    And I know that the question was asked. It's been asked 
already. But I wanted to ask just a little more directly: Is 
this an effort or an attempt to--perhaps you see a pattern on 
the part of the census of not fully divulging and disclosing 
information that the GAO has requested at the behest of this 
committee and others here in the Congress?
    Mr. Mihm. The second half of your question, sir, is a 
little bit easier to answer as to whether or not it's part of a 
pattern. As I mentioned, we have not had access problems to the 
Bureau which we have not been able to resolve. I mean, this 
subcommittee and the chairman have been very helpful in making 
sure that we have the access that we need. In terms of whether 
or not this is an attempt to deny us access in this particular 
case, I can only conclude based on what it says, which is that 
we--that it's a report that must not and can not be shared with 
the GAO or with any GAO representative.
    The concern I was alluding to earlier is the chilling 
effect or the broader message that this may send. An area 
manager is responsible for several LCOs and for overseeing 
several LCOs. And this sends a pretty powerful message that 
there are areas that are out of bounds for the General 
Accounting Office and areas that you don't talk to the GAO 
about. And as I mentioned, Randy and I are amply supported by 
colleagues back at GAO, but we're still a small team. So we are 
critically reliant on people to be forthcoming with us and not 
walling us off or parsing what they say before they talk to us. 
If they do, it hampers our ability to support the Congress in 
oversight and is just not--it's not a healthy relationship to 
have with an agency if that's the way it's operating.
    Mr. Ford. I can trust--I would imagine, Mr. Chairman, we're 
going do have those before the census here sometime soon to 
explain this. I share your concern and desire to get to the 
bottom of it. I appreciate your responses, Mr. Mihm.
    Can I just ask one or two more questions, Mr. Chairman? I 
think I have just a little time left. One of the things I was 
concerned about when I was home during our recess recently, 
Director Mihm, I had a chance to meet with some of the 
enumerators after their--one of their first 2 days out in the 
community. And one of the questions was posed to those of us 
who had several of the regional directors and other local 
directors there and some other elected officials, there are 
those that were concerned about their safety because of the 
comments that had been made by some of my colleagues here in 
this Congress and even some of those running for other offices. 
Do you have any reports of hostility or refusals to answer 
questions, or doors being slammed in the face of enumerators? 
What type of data do you have on that?
    Mr. Mihm. We don't have any data on that sir. I talked to a 
very senior Census Bureau official about this issue directly 
yesterday afternoon and asked him if there was information 
suggesting both in a general sense if there was a response 
problem because of the attention the census has received this 
time around, as well as whether he was seeing particularly an 
escalating hostility over what they've experienced in the past. 
And he said that the information was not available. There's 
always some isolated incidences around the country, but at this 
point they appear to be isolated incidences, anecdotes rather 
than data.
    Mr. Ford. What type of training or other precautions are 
there for enumerators who may go into high crime areas, that 
you know of?
    Mr. Mihm. The Census Bureau has a verbatim training 
approach. So the training is the same that's given across the 
Nation for areas that are considered to be high crime or areas 
where there may be some sensitivity about the safety of 
enumerators. They will often do team enumeration. That is, 
sending more than one enumerator in. They have also in the 
past, and would certainly this time around, have used very 
targeted enumeration where they will go in and basically bring 
in a very large team of census enumerators and crew leaders and 
try to enumerate a particular neighborhood, all together, on 
one particular Saturday morning, for example.
    So that the Bureau is very, very sensitive and takes steps 
to protect the safety of their temporary workers. At the same 
time, they realize that you're dealing with millions of 
Americans that for one reason or another--in this case, over 40 
million households--for one reason or another have already 
decided not to respond to the census. So there's always going 
to be some episodes of hostility that they run into.
    Mr. Ford. The mail response rate was, I guess, roughly 3 or 
4 percentage points better than predicted. If I'm not mistaken, 
you might have suggested that the estimated costs of 
approximately $34 million for each point, which gives us--puts 
us at about $140, $136 million savings--and didn't go to one of 
the schools in Florida, Mr. Chairman, I can barely add--but I 
think about $136 million that can be devoted for other 
purposes. As much as I would like to see that money come to my 
great State, that the chairman has suggested, I think it's a 
good idea that perhaps we use this money for some of the hard-
to-count areas.
    And I was curious to know if you thought that that might be 
a worthy idea or a noble idea.
    Mr. Mihm. Certainly, as Director Prewitt committed in his 
discussions with the chairman at the hearing last week, the 
Bureau will be using any surplus that may have accrued due to 
the higher-than-anticipated mail response rate in large part to 
help with the enumeration of hard-to-enumerate areas. He also 
cautioned that they have to take a look at how the productivity 
assumptions play out to make sure, first, that that surplus 
actually exists, and then the size of the surplus. But as we've 
reported before, the productivity assumptions were rather 
conservative that they used. Overall, the Bureau has committed 
to doing exactly what you're suggesting in large measure and we 
would endorse that.
    Mr. Ford. Just take 1 second, Mr. Chairman. I have some 
members from the Tennessee Homebuilders Association who are 
sitting back in the back and have been patiently waiting on me. 
I want to thank them for taking time out of their schedule to 
come over to our committee. This is important to our district, 
obviously, and some of the efforts as we look to expand our 
economy back home.
    And I thank you, Mr. Mihm, and really all of you for being 
here today. I can assure you that the capacity of this 
committee to get to the bottom of investigations or to 
investigate to make sure we get to the bottom of things is 
endless almost. So be assured we'll get an answer to this 
question for you. We'll get back to you soon.
    Mr. Miller. Thank you, Mr. Ford. One of your questions, 
your last question, I was agreeing with you. As you know, I 
sent a letter to the director that we should program this money 
to go to hard-to-count areas in Chicago or wherever.
    Mr. Ford. As long as you don't send it to the Florida 
football team.
    Mr. Miller. I have offered it, since I sit on that 
appropriations subcommittee, to help any way we can if we need 
to do any reprogramming. Director Prewitt said it wasn't 
necessary. I think we are going to save some money; that, as I 
said before, we want to do everything we can to count everybody 
in this country and especially in those hard-to-count areas. So 
I'm glad we have some more flexibility, whether it's more 
advertising, hiring more enumerators, whatever possible.
    I want to make sure, by the way, that we have officially 
included in the record the memo on this, the redacted one that 
removes individual names. So, without objection, I'll include 
that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.032
    
    Mr. Miller. I also want to--Mr. Ryan had to leave before 
the questions and he had some questions which, as you know, we 
will submit questions in the next 2 weeks, but I want to make 
sure that I include Mr. Ryan's. He had some concerns about post 
office box issues. And so if you would respond to those and 
make those part of the official record.
    Mr. Mihm. Absolutely.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T1177.033
    
    Mr. Miller. As you say in your testimony and show in the 
charts, that despite the better-than-expected mail response 
rate, the Census Bureau still is attempting to count more 
people in less time during the door-to-door phase than they did 
in 1990. Is GAO seeing any evidence of pressure for enumerators 
to get out of the field early, and if so, what are the 
implications of this?
    Mr. Mihm. First in the thesis of your question, sir, as you 
can see from the chart, it took the Census Bureau about 14 
weeks in 1990 to enumerate 34 million nonresponse households. 
They're now planning to do 42 million in about 10 weeks. So 
there's a much greater effort that they're expecting this time 
around. They have many more people that are hired and on the 
ground which is certainly helpful.
    The Bureau sets and often attains very ambitious goals for 
nonresponse followups, schedule completion. As I mentioned, 
within the first 10 days or so, they're at 17 percent 
completion rates. And that's a very promising achievement.
    The concern, of course, is always to make sure that there's 
not a cost that comes along with this. We saw during the dress 
rehearsal that the Bureau got out of the field in some 
locations on time and other locations actually early. And there 
was a bit of a celebration on that. At that point, and in front 
of a hearing in the Senate, I cautioned that before we join 
that celebration, we needed to see data on proxy. And that is 
the extent to which we were getting nonhousehold data. Indeed 
it wasn't until much after the fact that we found out that the 
studies were showing that the amount of proxy data was much, 
much greater than the Bureau had hoped; in some cases double 
the 6 percent nonresponse universe of proxy data. That's always 
a concern. It was a concern in 1990 when they had high levels 
of proxy data.
    And it gets back to the point, sir, that you and Mr. Davis 
have been raising about hard-to-enumerate areas. West Manhattan 
in 1990 had something like a 42 percent proxy rate for their 
nonresponse universe. And so basically approaching half of the 
nonresponse workload that in one LCO in a hard-to-enumerate 
area, that was enumerated using proxy data. Data from 1990 also 
shows that African Americans are enumerated at higher rates 
using proxy data than White Americans. So this isn't just a 
general issue of data quality, the proxy data; it cuts on lines 
of the differential undercount and the overall accuracy of the 
census.
    Mr. Miller. Well, proxy data, they're supposed to make six 
attempts, three in phone and three in person, to try to contact 
that household. And then they start talking to neighbors or 
whatever other source they have. What is an acceptable level? 
We've talked about this before but, you know, we're going to be 
approving that here in the next month or two. I mean, what are 
acceptable levels of proxy data? And at the specific local 
census office area.
    Mr. Mihm. It's hard to say. I wish I could give you a 
definitive answer on that. The Bureau's goal is traditionally 
to keep it at or below 6 percent of the nonresponse universe. 
Obviously in some or perhaps many offices they reach that. 
However, there are more than a few offices in which they do not 
reach that in which it balloons up quite significantly above 
that 6 percent nonresponse universe.
    And as I mentioned, it gets to be a particular concern when 
it's in offices that also have the hard-to-enumerate 
populations because you just aren't having proxy data but 
you're having proxy data disproportionately in areas where 
we've had traditionally highest undercounts.
    Mr. Miller. Just a couple of questions about money. The 
budget predicted the 61 percent mail response rate and follows 
along with Mr. Ford's comments. Director Prewitt had said 
earlier that they could sustain a lower-than-expected response 
rate of, say, 58 or 59 percent without coming back to Congress 
for additional funding. With the significantly better-than-
budgeted short form mail response rate and a long form response 
rate only 1.8 percent rate lower than expected, do you believe 
the Bureau should be able to cope with this shortfall?
    Mr. Mihm. There is----
    Mr. Miller. Money.
    Mr. Mihm. The short answer is yes. Nothing that we've heard 
from the Bureau suggests that the incremental amount that they 
were off on their anticipated long form mail response rate 
causes them undue or severe difficulties. In fact, I think one 
of the things that Director Prewitt has pointed out is that at 
least some of the surplus from the higher overall mail response 
rate may have to go to addressing if they have lower 
productivity in the field, because they have more-than-
anticipated long forms to followup on. So it should not be a 
telling problem for them.
    Mr. Miller. Let me--I was talking with Congresswoman Meek 
this morning, and Congresswoman Meek and I introduced 
legislation, which we ran into some roadblocks in different 
areas, and that was to allow people to work for the Census 
Bureau that may need to get waivers. You make a statement in 
your report--I was glad to hear that, but would you expand upon 
it--in the hard-to-count areas to get people to work for us, 
but not affecting their Medicaid or without affecting their 
temporary assistance for needy family programs. I see a large 
number of States, according to your report, have made, you 
know, waivers and such. Would you expand upon that?
    And we've talked about it before, but is the ability to 
hire people in the hard-to-count areas, whether it's the 
language issues or people in some of Mr. Davis' very difficult-
to-count parts, would you expand about the hiring abilities 
there and what the States have done?
    Mr. Mihm. Yes, sir. Dealing with the second part of the 
question first, the ability to hire in each neighborhood is 
very important for the Bureau. They've really put a great deal 
of effort into that. They recognize that people want to 
enumerate in neighborhoods that they're comfortable with and 
people want to be enumerated by people that they're comfortable 
with.
    So it's not a matter that if they're having a recruitment 
problem in an inner city area or a suburb that you can just 
kind of parachute in a bunch of enumerators from other parts of 
the city or area. The Bureau will do that as a very last resort 
if they have to. But their clear preference is to get people 
from local areas.
    As we mentioned in the written statement, the Bureau has 
continued to work with State governments in order to get them 
to grant exemptions. And since our March 14th testimony there 
is--New York, South Carolina, Virginia, Indiana, Kansas, 
California, Alaska, Idaho, have all enacted State legislation 
providing some sort of relief from State requirements for 
people on assistance to work on the census.
    Interestingly, also the Bureau data is showing since 1997 
over 15,000 welfare-to-work hires have come to work on the 
Census Bureau for the census. And so there's a real effort that 
the Bureau makes to get people from the local communities. And 
as part of that, they have been working very hard, consistent 
with the legislation that you and Mrs. Meek have had pushed in 
order to get exemptions from any disincentives that may be out 
there.
    Mr. Miller. So the overall evaluation of hiring enumerators 
in the localized hard-to-count areas, how is that going? I 
mean, Director Prewitt said it is going well.
    Mr. Mihm. Yes, sir. Largely it's going quite well. 
Nationally they are front-loaded, and that is, they hired more 
people than they actually had positions for. So they're 
splitting the positions actually into kind of two different 
positions. They have been successful in virtually all areas of 
the country.
    In the discussions that we've had with local census 
managers they are quite comfortable that they are able to get 
enumerators and other office staff with the proper language 
skills for that. In one area in Chicago, for example, a local 
census manager was telling us that there was Lithuanian, 
Polish, Hispanic, and Chinese neighborhoods, and were able to 
get individuals that could cover all of those neighborhoods. So 
they are able to get people with the proper language skills at 
this point.
    As I mentioned, it is within the next few days that we will 
begin to start seeing some of the first turnover data and that 
will be critical to telling all of us--and obviously including 
the Census Bureau whether turnover is at historically high 
rates at some of these hard-to-enumerate areas.
    Mr. Miller. I want to enter something else in the record 
and then call on Mr. Davis. At last week's hearing, Dr. Prewitt 
testified that a Bureau employee mistakenly faxed a document 
listing the names and Social Security number of job applicants 
to the home of a private citizen instead of another census 
office. The private citizen, a constituent of Representative 
Tom Coburn, then turned over the document to the Congressman.
    It was insinuated in the hearing that Congressman Coburn 
might have distributed the document to the media. That was 
contrary to my understanding of the events and I stated so at 
the time. Since then, Congressman Coburn has written me a 
letter detailing exactly what happened.
    His letter, addressed to me personally, says, ``I want to 
assure you that I have not distributed the document to anyone 
in the media. I permitted only one reporter to see any portion 
of the document. I was careful to conceal its confidential 
contents. The reporter was allowed to merely confirm that the 
document was in fact from the Census Bureau.''
    I would like to enter this, his entire letter, at this time 
into the record. Without objection, it will be entered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1177.034
    
    Mr. Miller. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. We've 
indicated that in spite of there being some areas, especially 
inner city hard-to-count areas where the response is less than 
expected, there have been others where the response has been 
better than expected, and overall it is my understanding that 
the response has been better in those areas than expected.
    Are you aware of any effort to take a look at the different 
experiences, coming from areas that were similar, to look at 
what may happen or what might have happened in one that did not 
happen in another?
    Mr. Mihm. Yes, sir. In fact, we're doing an evaluation of 
that right now. We'll be in the field shortly. Looking at a 
selection of communities that had much higher-than-anticipated 
mail response rates, both higher than anticipated this time 
around and also as measured by doing much better than they did 
in 1990, the Detroit and surrounding area seems to have done 
very well.
    One of the things that I should have mentioned earlier is 
that one of the interesting stories that's coming out of the 
census this time around is that when you look at the expected 
mail response rates adjusted by type of office and type of 
area, actually the urban areas and the hard-to-enumerate areas 
within urban areas did better than expected this time around, 
even though in an absolute sense they had lower mail response 
rates.
    Where the Bureau did not do as well as expected are in some 
of the suburban and nondensely populated areas including some 
of the more rural areas. And so that's the challenge. I don't 
know if, Robert, if you have anything in particular that you 
want to add to that.
    Mr. Goldenkoff. No.
    Mr. Davis. I know that there's the 10-week schedule to 
followup on the nonresponse. Are we aware of any conversations 
in the planning in the efforts that this might be lengthened in 
some of the areas that were experiencing particular difficulty?
    Mr. Mihm. Yes, sir. The Census Bureau in both their 
operational plans, and Director Prewitt personally to this 
subcommittee in other statements that he has made, has 
committed that he will not leave the field until he's done in 
any particular area. The 10 week is certainly a planning 
deadline and that they are doing everything they can to 
achieve. But the last time in--the last time being in 1990, in 
parts of New York City they did not close out until August. 
And, you know, while no one at the Bureau says they anticipate 
being in the field in August, if that's what happens I'm quite 
certain that they will continue to enumerate as long as they 
need to in the field.
    Mr. Davis. Do you know if there's a projected cutoff level? 
I'm saying if there is any determination that, say, we've 
gotten up to an 85 percent response--which is OK, you know--
we've--this is about as well as we're going to do, we've done 
everything that we can think of, that we're going to cut here 
and move ahead?
    Mr. Mihm. There better not be. The closest thing that they 
have to your question though, sir, is that the Bureau does have 
what they call closeout procedures. Closeout is done not on a 
whole office level, it's done on parts of offices as the 
enumeration in each area covered by a local office reaches the 
95 percent threshold--then they will make one final attempt at 
the final 5 percent irrespective of whether or not they've been 
to them six times or not. And so they will make one final 
attempt and get as complete data as possible. And if they can 
get complete data from the household, great; if not, they get 
it from proxy. And if they even can't get it from proxy, then 
they have algorithms which impute the persons and 
characteristics of those persons. But that's the 95 percent 
threshold.
    Mr. Davis. So communities can be pretty comfortable that at 
least up to that point, there's going to be all of these 
efforts put forth to try and make sure that that threshold has 
in fact been reached.
    Mr. Mihm. The Bureau procedures certainly call for them to 
do that. And we will certainly continue to be monitoring that 
both at the headquarters level and, importantly, all across the 
country including sir, Chicago, to make sure that those 
procedures are actually followed.
    Mr. Davis. Well, I thank you very much. Mr. Chairman, I 
also want to just thank you for the position that you've taken 
relative to the utilization of unexpended resources in areas 
that may in fact have some difficulty in counting. I think 
that's the only way to really go in terms of trying to make 
sure that across the board we get an accurate, or as accurate 
account as we can, from all of the people in this country no 
matter what type community they may live in.
    Mr. Miller. Thank you. I agree. You know, it's always been 
the challenge from day one to make sure we get the undercounted 
completely counted.
    I have two short questions. Does GAO have a plan to 
evaluate performance of the local census office level and, if 
so, would you describe the plan and the criteria you would use 
to look at performance?
    Mr. Mihm. Yes, sir. There's actually a several-pronged 
approach that we have. We've been working to develop a list of 
local census offices as a subset of the 511 that are those that 
are likely to be most challenged in taking the census based on 
criteria such as the hard-to-enumerate populations, mail 
response rate, progress in recruiting, and now progress in 
staffing and possible turnover. We've had a first set of 
contacts with 27 of those offices. We anticipate further 
contacts. We are certain that we will be making further 
contacts with them and will be actually planning to be on 
location as these offices get toward the end of nonresponse 
followup so we can monitor personally and directly the closeout 
procedures that Mr. Davis and I were just discussing.
    Separately, what we'll be doing is a sample interview of 
LCO managers. We realize the managers are an incredible 
resource that's only there for a short time. Once the census is 
over these people go away and we've lost the ability to tap 
their knowledge about what worked well, what didn't work well, 
what are some of their ideas for the next census. These are the 
people that have been living, breathing, and dying with the 
census over the last few months. So we'll be interviewing a 
sample of those managers.
    Mr. Miller. Thank you. I hope you all have visited your 
local census offices. I'm impressed at my local census office, 
the local manager, and the assistant, and seeing their 
operations. So if you haven't, I would encourage you to make a 
chance just to stop by and visit. I've been impressed. Because 
you're right; these are people that are not going to have job 
in a few months, at least with the Census Bureau. And I think 
they do a very good job.
    Let me ask one final question and this is a question I've 
asked--a couple Members have asked me--so let me just clarify 
it. And that is, that after the deadline for the forms to come 
back, they're still coming in. And we talked about it last week 
with Director Prewitt. Would you explain to me what happens to 
those forms? Because Members are telling me, well, we're having 
people say, well, I sent my form in, even though it was late, 
and they still insist on asking those questions. So you may 
have that same thing. Would you explain that issue?
    Mr. Mihm. Yes, sir. The reaction that some of the 
constituents are giving to your colleagues is a fortunate by-
product or perhaps or maybe unfortunate by-product of a 
fortunate situation. And that is that the mail response to the 
census continues to trickle in. I recall just a couple of weeks 
ago, or I guess it's less than that, a week or so ago, seeing 
the beginnings of a census add on TV and slapping my head going 
oh, my gosh, what's this doing now, the mail response form is--
or mail response portion is over--and then hearing the tag line 
which was, cooperate with the Census Bureau employee, if you 
haven't responded, when they come to your house.
    So in other words, the census is continuing to advertise, 
they're still up on the air. Now the focus is telling people to 
cooperate with the census takers. The effect of that, at least 
in part, is that they're still getting census forms mailed in.
    So what happens as a result is that these people are too 
late to be deleted from the nonresponse workload, so they will 
have a census enumerator go to their house. The census 
enumerator will explain to them, ``I understand that you said 
you've sent in your form, I still need to get a form from 
you.''
    The reason the Census Bureau requires that is that they 
can't be assured that they get every form that's mailed. They 
can't be assured that everyone is, to put it delicately, 
recalling correctly that they mailed back the form. So they 
will still try and enumerate these individuals.
    They then have a series of procedures, algorithms, that 
they go through to determine the more complete form and the 
form that the census will actually accept. When they get an 
enumerator form versus the mail-back form, generally it is the 
mail-back form they would accept. And after that, it deals with 
the more complete form and higher popultion count.
    Mr. Miller. Is it not feasible to kind of update their 
lists if they get some more in the mail in late April or 
something like that?
    Mr. Mihm. They did it once. The initial mail response rate, 
or I guess the ``preinitial'' or the first cut of the address 
list for nonresponse followup, was April 11th, what is now 
defined as the initial mail response list was the list on April 
18th. That was then sent to local census offices where they 
were to have marked through on the enumerators' registers. The 
Bureau----
    Mr. Miller. It's not feasible to do it anymore.
    Mr. Mihm. That has been the Bureau's conclusion. We haven't 
looked at it and see if they could do that, sir.
    Mr. Davis. Well, it's just interesting, that line of 
conversation, because on Saturday of this week, a group of 
elected officials and their volunteers are going into the area 
that we talked about earlier, simply asking people to cooperate 
with the census takers and asking them to be available and be 
ready to not close the door, to not freeze them out. And right 
now there's a decent level of excitement about it. And we're 
looking forward to seek, you know, the extent of the impact 
that it will have.
    And we've had that kind of cooperation certainly from the 
local census people in the area. It hasn't been any difficulty 
at all getting information, working with them, and we hope this 
is going to generate----
    Mr. Mihm. Mr. Davis, if I can suggest that the experience 
from 1990 and the experience from here in 2000 already suggests 
that those types of messages sent by community leaders, 
including elected leaders, ministers, and others, are very, 
very powerful. There is no substitute for community leaders 
telling people that it's not just appropriate but it's 
important to the community to respond to the census. There is 
no substitute for that.
    Mr. Miller. Anything else Mr. Davis.
    Mr. Davis. No.
    Mr. Miller. Mr. Ford, do you have anything else?
    Mr. Ford. No, Mr. Chairman, I don't have any other 
questions. I would only thank the panelists again and can 
assure them that I would imagine we're going to ask some folks 
to come before us from the census to answer some of these 
questions.
    Just one last thing, I'm sort of getting explained to me 
this chart here. I'm a little confused by the last number, or I 
should say the last column there, or the tallest one, the 
furthest--the closest to you on the right there. If the 23--or 
the 1980 number, the 1990 nonresponse followup, can you just 
explain to me why it goes down like that, maybe a little slow.
    Mr. Mihm. Why the timing goes down?
    Mr. Ford. Right. Right.
    Mr. Mihm. The schedule that the Bureau set calls for them 
to be able to enumerate these 42 million households in a 10-
week period, where it took them 14 weeks to do this back in 
1990. And that's the line that slopes down there. They believe 
that they can do this through additional hiring that they're 
doing this time around. And the early data certainly suggests 
that they've got people on the ground. As I mentioned, they 
have 460,000 people that are out there knocking on doors. They 
believe that they can do it through better targeting or faster 
action in areas where they are having either recruitment 
problems, including raising the pay rates, which we have 
suggested is important when they have staffing problems. They 
believe that they can do it through better and closer 
management of local operational problems. All of those are 
going to be key in order to making this very ambitious 
timeframe.
    Mr. Ford. Thank you. And, Mr. Chairman, I yield back 
whatever time.
    Mr. Miller. Thank you. Thank you again for being here 
today. I appreciate it. And you know, we really rely on you 
providing that objective nonpartisan information in oversight 
on this very critical issue.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered.
    In case there are additional questions the Members may have 
for our witnesses, I ask unanimous consent for the record to 
remain open for 2 weeks for Members to submit questions for the 
records and that the witnesses submit written answers as soon 
as practicable. Without objection so ordered.
    Meeting adjourned.
    Mr. Mihm. Thank you, sir.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]


</pre></body></html>
